Appendix A

United States v. McCoy
United States Court of Appeals for the Fourth Circuit
June 18, 2020, Submitted; June 23, 2020, Decided
No. 20-6339
Reporter
810 Fed. Appx. 223 *; 2020 U.S. App. LEXIS 19502 **; 2020 WL 3428210
UNITED STATES OF AMERICA, Plaintiff Appellee, v. ALEX LENARD MCCOY, Defendant
- Appellant.

Notice: PLEASE REFER TO FEDERAL RULES
OF APPELLATE PROCEDURE RULE 32.1
GOVERNING
THE
CITATION
TO
UNPUBLISHED OPINIONS.

Prior History: [**1] Appeal from the United
States District Court for the Western District of
North Carolina, at Charlotte. (3:15-cr-00273-FDWDCK-3; 3:19-cv-00613-FDW). Frank D. Whitney,
District Judge.
McCoy v. United States, 2020 U.S. Dist. LEXIS
18172 (W.D.N.C., Feb. 3, 2020)

Disposition: DISMISSED.

Core Terms
certificate

Counsel: Alex Lenard McCoy, Appellant, Pro se.

Judges: Before FLOYD, THACKER, and
RUSHING, Circuit Judges.

Opinion
[*223] PER CURIAM:
Alex Lenard McCoy seeks to appeal the district
court's order denying relief on his 28 U.S.C. § 2255
(2018) motion. The order is not appealable unless a
circuit justice or judge issues a certificate of
appealability. See 28 U.S.C. § 2253(c)(1)(B)
(2018). A certificate of appealability will not issue
absent "a substantial showing of the denial of a
constitutional right." 28 U.S.C. § 2253(c)(2)
(2018). When the district court denies relief on the
merits, a prisoner satisfies this standard by
demonstrating that reasonable jurists could find the
district court's assessment of the constitutional
claims debatable or wrong. See Buck v. Davis, 137
S. Ct. 759, 773-74, 197 L. Ed. 2d 1 (2017). When
the district court denies relief on procedural
grounds, the prisoner must demonstrate both that
the dispositive procedural ruling is debatable and
that the motion states a debatable claim of the
denial of a constitutional right. Gonzalez v. Thaler,
565 U.S. 134, 140-41, 132 S. Ct. 641, 181 L. Ed.
2d 619 (2012) (citing Slack v. McDaniel, 529 U.S.
473, 484, 120 S. Ct. 1595, 146 L. Ed. 2d 542
(2000)).
We have independently reviewed the record and

Page 2 of 2
810 Fed. Appx. 223, *223; 2020 U.S. App. LEXIS 19502, **1

conclude that McCoy has not made the
requisite [**2] showing. Accordingly, we deny
McCoy's motion for a certificate of appealability
and dismiss the appeal. We dispense with oral
argument because the facts and legal contentions
are adequately [*224] presented in the materials
before this court and argument would not aid the
decisional process.
DISMISSED
End of Document

Appendix B

McCoy v. United States
United States District Court for the Western District of North Carolina, Charlotte Division
February 3, 2020, Decided; February 3, 2020, Filed
3:19-cv-00613-FDW; (3:15-cr-00273-FDW-DCK-3)
Reporter
2020 U.S. Dist. LEXIS 18172 *; 2020 WL 534491
ALEX LENARD MCCOY, Petitioner, vs.
UNITED STATES OF AMERICA, Respondent.

Subsequent History: Appeal dismissed by,
Certificate of appealability denied United States v.
McCoy, 2020 U.S. App. LEXIS 19502 (4th Cir.
N.C., June 23, 2020)

Prior History: United States v. McCoy, 895 F.3d
358, 2018 U.S. App. LEXIS 19220 (4th Cir. N.C.,
July 13, 2018)

Core Terms
sentence, quantity, grams, Guidelines, Indictment,
cocaine, ineffective, imprisonment, conspiracy,
Vacate, misled

Counsel: [*1] Alex Lenard McCoy, Petitioner, pro
se, CRESSON, PA.

Judges: Frank D. Whitney, Chief United States
District Judge.

Opinion by: Frank D. Whitney

Opinion

ORDER
THIS MATTER is before the Court on initial
screening of Petitioner's Motion to Vacate, Set
Aside or Correct Sentence under 28 U.S.C. § 2255.
[CV Doc. 1], i

I. BACKGROUND
On November 18, 2015, Pro Se Petitioner Alex
Lenard McCoy ("Petitioner") was charged in a Bill
of Indictment with one count of crack cocaine
trafficking conspiracy in violation of 21 U.S.C. §
841(a)(1) and 846 (Count One); two counts of
distribution and possession with intent to distribute
crack cocaine in violation of 21 U.S.C. § 841(a)(1)
(Counts Five and Six); and one count of possession
with intent to distribute crack cocaine in violation
of 21 U.S.C. § 841(a)(1). [CR Doc. 38: Indictment],
On May 16, 2016, Petitioner and the Government
entered into a Plea Agreement pursuant to which
Petitioner agreed to plead guilty to Count One and
the Government agreed to dismiss the remaining

1 Citations to the record herein contain the relevant document
number referenced preceded by either the letters "CV," denoting that
the document is listed on the docket in the civil case file number
3:19-cv-00613-FDW, or the letters "CR," denoting that the document
is listed on the docket in the criminal case file number 3:15-cr00273-FDW-DCK-3.

Page 2 of 6
2020 U.S. Dist. LEXIS 18172, *1

charges in the Indictment. [CR Doc. 67: Plea
Agreement], Among other relevant terms in the
Plea Agreement, the parties agreed to jointly
recommended that the Court find that the drug
quantity "known to or reasonably foreseeable by
the [Petitioner] was at least eight hundred and forty
(840) grams but [*2] less than two thousand eight
hundred (2,800) grams." [CR Doc. 67 at 2]. In the
Plea Agreement, Petitioner stipulated that there was
a factual basis for his guilty plea. [ld.1. The Factual
Basis was filed on May 24, 2016. [CR Doc. 70].
The Factual Basis also stated that the drug quantity
known to or reasonably foreseeable by Petitioner
was at least 840 grams but less than 2,800 grams.2
[Id at 3].
Petitioner's Rule 11 hearing was held on June 1,
2016. At the hearing, the Government realized the
Plea Agreement referred to cocaine, rather than
cocaine base, when discussing the quantity of drugs
involved in the conspiracy. [CR Doc. 126 at 8: Plea
Hearing Tr.]. Counsel for the parties agreed to a
"pen and ink" correction to the Plea Agreement to
correctly state the drug as cocaine base. Petitioner
did not object and the Court allowed the attorneys
to initial the change. An Amended Plea Agreement
reflecting this change, and otherwise identical in all
respects to the original Plea Agreement, was filed
the same day. [CR Doc. 71], Petitioner pleaded
guilty in accordance with the Amended Plea
Agreement (hereinafter "Plea Agreement"). [CR
Doc. 72: Acceptance and Entry of Guilty Plea]. The
Plea Agreement also [*3] provided, in part, as
follows:
In this case, the Government has filed an
Information regarding one prior felony drug
conviction pursuant to 21 U.S.C. 851. The
Defendant stipulates, agrees, and affirms that
the Information is accurate and valid for
purposes of 21 U.S.C. § 851, and that
Defendant has no challenge to the same. Thus,

2 The Factual Basis also describes details of various drug transactions
involving Petitioner and/or his associates. The total amount of crack
cocaine involved in those transactions is 140.4 grams. [CR Doc. 70
at fl 2-6, 8-9],

the Defendant is facing a mandatory statutory
sentence of not less than twenty (20) years nor
more than life imprisonment. HOWEVER, if
the Defendant complies with each and every
provision of this plea agreement, the United
States will withdraw such Section 851
information at the time of sentencing, so the
Defendant will be facing a sentence of no less
than ten (10) years nor more than life
imprisonment.
[CR Doc. 71 at 2],
A United States Magistrate Judge accepted
Petitioner's guilty plea after conducting a thorough
plea colloquy, during which Petitioner was
represented by counsel. rSee id.l. Under oath,
Petitioner told the Court that he received a copy of
the Indictment and discussed it with his attorney.
[Id. at ^[ 8]. The Court then asked the Government
to explain the charge and penalty. [CR Doc. 126 at
3]. The Government noted, among other things, that
the mandatory minimum for a conviction
under [*4] 21 U.S.C. § 841(b)(1)(A) was 10 years
to life, but that the Government had filed an 851
enhancement for Petitioner's prior felony drug
conviction, which increased the mandatory
minimum to 20 years to life. [CR Doc. 126 at 3-5],
The Government then noted the Plea Agreement
provision in which the Government agreed to
withdraw the 851 enhancement if Petitioner
complied with the terms of the Plea Agreement. [Id.
at 4], Petitioner told the Court that he fully
understood the charge against him, including the
maximum penalty he faced if convicted. [CR Doc.
72 at Tf 9]. The Petitioner further attested that he
had spoken with his attorney regarding how the
U.S. Sentencing Guidelines might apply to his case
and that, in some circumstances, Petitioner may
receive a sentence higher or lower than that called
for in the Guidelines. [Id. at
13, 15]. The
Petitioner also attested that he understood that the
District Judge could not determine the applicable
Guidelines range until after Petitioner's Presentence
Report was prepared, [kh at 1} 14]. The Petitioner
also told the Court that he understood that if his
sentence is more severe than Petitioner expected,

Page 3 of 6
2020 U.S. Dist. LEXIS 18172, *4

the Petitioner will still be bound by his plea and
would have no right [*5] to withdraw it. [Id. at If
17]. The Petitioner stated, under oath, that he is in
fact guilty of the count in the Bill of Indictment to
which he was pleading guilty. [Id. at 24],
The Petitioner further attested that he understood
the terms of his Plea Agreement and agreed with
those terms. [CR Doc. 72 at ^ 26]. In reviewing the
terms of the Plea Agreement at the plea hearing, the
Government inadvertently stated the drug quantity
known to or reasonably foreseeable by Petitioner as
"at least 240 grams but less than 2,800 grams." [CR
Doc. 126 at 9: Plea Hearing Tr. (emphasis added)].
The mistake went unnoticed at the hearing. fSee id..
generally]. As noted, the Plea Agreement and the
Factual Basis correctly provide that Petitioner was
responsible for "at least eight hundred and forty
(840) grams but less than two thousand eight
hundred (2,800) grams." [CR Doc. 70 at ^ 11; CR
Doc. 71 at 2], The Petitioner also told the Court that
he was aware that a Factual Basis had been filed in
his case and that he had read it, understood it, and
agreed with it. [Id. at 30-1]. Petitioner stated that
no one had threatened, intimidated, or forced him to
enter his plea of guilty. Idd. at 321. Petitioner [*6]
also stated that, other than the terms of his Plea
Agreement, no one made him promises of leniency
or a lighter sentence to induce him to plead guilty,
[Id. at K 32]. Finally, Petitioner told the Court that
he was "satisfied with the services of [his] lawyer
in this case." [Id. at ^ 35].
Prior to Petitioner's sentencing hearing, a probation
officer prepared a Presentence Report (PSR). [CR
Doc. 96]. Based on a Total Offense Level of 33 and
a Criminal History Category of IV, the probation
officer noted a guideline imprisonment range of
188 to 235 months but found that Petitioner's
statutorily required minimum sentence of 20 years
was greater than the maximum applicable guideline
range. The probation officer, therefore, found that
the guideline term of imprisonment was 240
months. [Id. at fflf 33, 50, 79, 80 (citing U.S.S.G. §
5G 1.1(b))].

At Petitioner's sentencing hearing, the Court
affirmed the Magistrate Judge's findings and
acceptance of the Petitioner's guilty plea. [CR Doc.
129 at 5-6: Sentencing Tr.]. The Government
withdrew its 851 enhancement [CR Doc. 45],
pursuant to the Plea Agreement, thereby reducing
Petitioner's mandatory minimum sentence from 20
years to life to 10 years to life. [CR Doc. 129 [*7]
at 10]. The Court noted, therefore, that its starting
point for considering objections to the PSR was the
guidelines range of 188 to 235. [CR Doc. 129 at
11]. The Court heard argument and evidence on the
Government's objections to the PSR. The Court
granted the objections, which enhanced the Total
Offense Level to 37 and resulted in a guidelines
range of 292 to 365. [CR Doc. 129 at 12, 40-41,
45]. The Court entered judgment of guilty and
sentenced Petitioner to a term of 292 months'
imprisonment. [CR Doc. 118 at 2: Judgment].
Petitioner appealed his conviction and sentence to
the Fourth Circuit Court of Appeals. [CR Doc.
120]. The Fourth Circuit affirmed this Court's
judgment, finding, in pertinent part, as follows: (1)
that despite the Government's misstatement
regarding the drug quantity at the plea hearing,
"there's no reason to think that [Petitioner]
mistakenly believed or intended to plead guilty to
anything other than a crack-cocaine conspiracy
involving the precise drug quantities laid out in the
factual basis and plea agreement;" (2) that
Petitioner "knowingly and intelligently waived his
right to appeal;" and (3) that this Court did not err
in concluding there was a factual [*8] basis
supporting Petitioner's guilty plea. United States v.
McCoy. 895 F.3d 358, 363, 365 (4th Cir. 2018).
The Supreme Court denied Petitioner's petition for
writ of certiorari. McCoy v. United States. 139 S.
Ct. 494, 202 L. Ed. 2d 386 (2018).
On November 12, 2019, Petitioner filed the
pending Section 2255 motion to vacate. [CV Doc.
1]. In his Section 2255 motion, Petitioner claims his
counsel was ineffective because his counsel
"misled [Petitioner] into pleading guilty under the
impression that he was only responsible for a drug

Page 4 of 6
2020 U.S. Dist. LEXIS 18172, *8

quantity as alleged in the factual basis." [CV Doc. 1
at 4].
II. STANDARD OF REVIEW
Rule 4(b) of the Rules Governing Section 2255
Proceedings provides that courts are to promptly
examine motions to vacate, along with "any
attached exhibits and the record of prior
proceedings . . ." in order to determine whether the
petitioner is entitled to any relief on the claims set
forth therein. After conducting an initial screening
and examining the record in this matter, the Court
finds that the Petitioner has not asserted a colorable
claim for relief cognizable under § 2255(a) and the
arguments presented by Petitioner can be resolved
without an evidentiary hearing based on the record
and governing case law. See Raines v. United
States. 423 F.2d 526, 529 (4th Cir. 1970).
III. DISCUSSION
The Sixth Amendment to the U.S. Constitution
guarantees that in all criminal prosecutions, the
accused has the right to the assistance of counsel
for his defense. See U.S. CONST, amend. VI. To
show ineffective assistance [*9] of counsel,
Petitioner must first establish a deficient
performance by counsel and, second, that the
deficient performance prejudiced him. See
Strickland v. Washington. 466 U.S. 668, 687-88,
104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984). In
making this determination, there is "a strong
presumption that counsel's conduct falls within the
wide range of reasonable professional assistance."
Id. at 689; see also United States v. Luck. 611 F.3d
183, 186 (4th Cir. 2010). Furthermore, in
considering the prejudice prong of the analysis, the
Court "can only grant relief under . . . Strickland if
the 'result of the proceeding was fundamentally
unfair or unreliable.'" Sexton v. French. 163 F.3d
874, 882 (4th Cir. 1998) (quoting Lockhart v.
Fretwell, 506 U.S. 364, 369, 113 S. Ct. 838, 122 L.
Ed. 2d 180 (1993)). Under these circumstances, the
petitioner "bears the burden of affirmatively

proving prejudice." Bowie v. Branker. 512 F.3d
112, 120 (4th Cir. 2008). If the petitioner fails to
meet this burden, a "reviewing court need not even
consider the performance prong." United States v.
Rhvnes. 196 F.3d 207, 232 (4th Cir. 1999), opinion
vacated on other grounds. 218 F.3d 310 (4th Cir.
2000).
To establish prejudice in the context of a guilty
plea, a petitioner must show that "there is a
reasonable probability that, but for counsel's errors,
he would not have pleaded guilty and would have
insisted on going to trial." Meyer v. Branker. 506
F.3d 358, 369 (4th Cir. 2007) (quoting Hill v.
Lockhart. 474 U.S. 52, 59, 106 S. Ct. 366, 88 L.
Ed. 2d 203 (1985)). Further, a petitioner must show
that proceeding to trial would have been objectively
reasonable. See United States v. Fugit. 703 F.3d
248, 260 (4th Cir. 2012).
In evaluating such a claim, statements made by a
defendant under oath at the plea hearing
carry [* 10] a "strong presumption of verity" and
present a "formidable barrier" to subsequent
collateral attacks. Blackledee v. Allison. 431 U.S.
63, 73-74, 97 S. Ct. 1621, 52 L. Ed. 2d 136 (1977).
Indeed, "in the absence of extraordinary
circumstances, the truth of sworn statements made
during a Rule 11 colloquy is conclusively
established, and a district court should dismiss . . .
any § 2255 motion that necessarily relies on
allegations that contradict the sworn statements."
United States v. Lemaster. 403 F.3d 216, 221-22
(4th Cir. 2005).
When a defendant pleads guilty, he waives all
nonjurisdictional defects in the proceedings
conducted prior to entry of the plea. United States
v. Moussaoui. 591 F.3d 263, 279 (4th Cir. 2010).
Thus, a knowing and voluntary guilty plea
"forecloses federal collateral review" of prior
constitutional deprivations, including allegations of
ineffective assistance of counsel that do not affect
the voluntariness of the plea. See Fields v. Att'v
Gen, of Md.. 956 F.2d 1290, 1294-96 (4th Cir.
1992); accord United States v. Torres. 129 F.3d

Page 5 of 6
2020 U.S. Dist. LEXIS 18172, *10

710, 715 (2d Cir. 1997); Wilson v. United States.
962 F.2d 996, 997 (11th Cir. 1992); Smith v,
Estelle. 711 F.2d 677, 682 (5th Cir. 1983). A guilty
plea is valid when it "represents a voluntary and
intelligent choice among the alternative courses of
action open to the defendant." Burket v. Angelone.
208 F.3d 172, 190 (4th Cir. 2000) (citing North
Carolina v. Alford. 400 U.S. 25, 31, 91 S. Ct. 160,
27 L. Ed. 2d 162(1970)).

38]. Petitioner has not alleged or shown
extraordinary circumstances to overcome the sworn
testimony that he gave during the plea hearing. See
Lemaster. 403 F.3d at 221-22. Petitioner's after-thefact assertion that, despite all [*12] this, his
attorney misled him into believing he would only
be responsible for 140.4 grams or 280 grams of
crack cocaine, whether Petitioner points to the
Indictment or the Factual Basis, is unsupported, at
best. Further, the Fourth Circuit has already held
that "there's no reason to think that [Petitioner]
mistakenly believed or intended to plead guilty to
anything other than a crack-cocaine conspiracy
involving the precise drug quantities laid out in the
factual basis and plea agreement." McCoy. 895
F.3d at 363. Accordingly, his claim of ineffective
assistance on this issue is without merit.

Petitioner contends his attorney was ineffective
because his attorney "misled him into pleading
guilty under the impression that he was only
responsible for a drug quantity as alleged in the
Factual Basis." [CV Doc. at 4 (emphasis added)]. In
his supporting memorandum, however, Petitioner
argues [* 11] that he "pled guilty under the
impression, that his plea was based on the drug
quantities alleged in the overt act of indictment, not Additionally, although Petitioner alleges that he
on the few months of the conspiracy dates."3 [CV pleaded guilty based on having been misled by his
Doc. 1-1 at 10 (emphasis added)].
attorney regarding the drug quantity for which he
would be responsible, Petitioner certainly does not
Petitioner's contention that his attorney misled him show that proceeding to trial would have been
regarding the drug quantity for which Petitioner objectively reasonable. See United States v. Fugit,
would be deemed responsible is belied by (1) the 703 F.3d 248, 260 (4th Cir. 2012). This claim also
plain language of Petitioner's Plea Agreement and fails, therefore, because he has not adequately
the Factual Basis and (2) Petitioner's sworn alleged or shown prejudice.
representations during the plea proceedings that (a)
he understood the charge and the maximum In sum, for the reasons stated herein, Petitioner
penalty; (b) he has read the Plea Agreement and cannot show deficient performance and prejudice;
agreed with his terms; (c) he signed the Plea therefore, his ineffective assistance claim is denied.
Agreement; (d) he read, understood and agreed
with the Factual Basis; (d) he was not threatened,
intimidated, or forced to plead guilty; (e) other than IV. CONCLUSION
his Plea Agreement, no one made him any promises
For the foregoing reasons, the Court denies and
of leniency or a light sentence; (f) that he was in
dismisses Petitioner's § 2255 petition.
fact guilty of the offense; and (g) that he was
satisfied with his attorney's performance. [CR Doc. it IS, [*13] THEREFORE, ORDERED that:

3 The Indictment alleges that, as to the conspiracy offense charged in
Count One, "five (5) kilograms or more of a mixture and substance
containing a detectable amount of cocaine, and two hundred and
eighty (280) grams or more of a mixture and substance containing a
detectable amount of cocaine base, commonly called 'crack cocaine'"
is attributable to Petitioner. [CR Doc. 38 at 1-2]. As noted, the
amount of crack cocaine involved in the drug transactions described
in the Factual Basis totals 140.4 grams. [CR Doc. 70 at UK 2-6, 8-9].

1. Petitioner's Motion to Vacate, Set Aside or
Correct Sentence under 28 U.S.C. § 2255 [Doc.
1] is DENIED and DISMISSED.
2. IT IS FURTHER ORDERED that pursuant
to Rule 11 (a) of the Rules Governing Section
2254 and Section 2255 Cases, this Court
declines to issue a certificate of appealability.

Page 6 of 6
2020 U.S. Dist. LEXIS 18172, *13

See 28 U.S.C. § 2253(c)(2); Miller-El v.
Cockrell. 537 U.S. 322, 338, 123 S. Ct. 1029,
154 L. Ed. 2d 931 (2003) (in order to satisfy §
2253(c), a petitioner must demonstrate that
reasonable jurists would find the district court's
assessment of the constitutional claims
debatable or wrong); Slack v. McDaniel. 529
U.S. 473, 484, 120 S. Ct. 1595, 146 L. Ed. 2d
542 (2000) (when relief is denied on procedural
grounds, a petitioner must establish both that
the dispositive procedural ruling is debatable
and that the petition states a debatable claim of
the denial of a constitutional right).
Signed: February 3, 2020
Is/ Frank D. Whitney
Frank D. Whitney
Chief United States District Judge
End of Document

